                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                     Arkansas Secretary of State

                    APRIL 16, 2003 THROUGH JUNE 30, 2009




Report No.
E-HP-AR-03-09
February 2010
                         U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                1225 New York Ave. NW - Suite 1100
                                      Washington, DC 20005


                                                                                   February 26, 2010

Memorandum


To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Arkansas Secretary of State (Assignment Number E-HP-AR-03-09)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Arkansas Secretary of State (SOS). The contract required that the audit
be done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that, except for the lack of personnel
certifications and the maintenance of comprehensive equipment inventories, our audit concluded
that the SOS generally accounted for and expended HAVA funds in accordance with the HAVA
requirements and complied with the financial management requirements established by the U.S.
Election Assistance Commission. The SOS also complied with section 251 requirements.

      In its December 21, 2009 and October 19, 2009 responses (Appendices A-1 and A-2), the
SOS agreed with the report’s finding and recommendations, and provided corrective action.

        Please provide us with your written response to the recommendation included in this report
by April 27, 2010. Your response should contain information on actions taken or planned, including
target dates and titles of EAC officials responsible for implementing the recommendation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

         STATE OF ARKANSAS


   April 16, 2003 Through June 30, 2009



       UNITED STATES ELECTION
       ASSISTANCE COMMISSION




                     a1
                                            TABLE OF CONTENTS




                                                                                                                  PAGE


EXECUTIVE SUMMARY ................................................................................................ 1


BACKGROUND .............................................................................................................. 2


AUDIT OBJECTIVES...................................................................................................... 2


SCOPE AND METHODOLOGY...................................................................................... 3


AUDIT RESULTS............................................................................................................ 4


APPENDICES


Appendix A: Secretary of State Response to Audit Results ..................................... 7


Appendix B: Audit Methodology.................................................................................. 8

                    U.S. Election Assistance Commission

    Performance Audit of the Administration of Payments Received Under the

               Help America Vote Act by the State of Arkansas


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Arkansas
Secretary of State (SOS) for the period April 16, 2003 through June 30, 2009 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for property purchased with HAVA payments and for
program income, and met HAVA requirements for Section 251 funds for an election fund and for
a matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the lack of personnel certifications and the maintenance of comprehensive
equipment inventories, our audit concluded that the SOS generally accounted for and expended
HAVA funds in accordance with the requirements mentioned above for the period from April 16,
2003 through June 30, 2009. The exceptions needing SOS’s management attention are as
follows:

       •	 The SOS did not complete semi-annual certifications for personnel working full-time
          on HAVA activities.




                                                1
        •	 Controls over equipment purchased with HAVA funds at the Counties visited did not
           ensure retention of physical possession of all equipment transferred to them, and
           property records were not maintained in accordance with federal regulations.

We have included in this report the SOS managements’ formal response to the draft audit report
dated December 21, 2009 as Appendix A-1, which confirmed their responses to the findings and
recommendations dated October 19, 2009, Appendix A-2. In the State's October 19, 2009
response, there was a response to a draft finding (NFR #2) which was subsequently resolved
with satisfaction and therefore no longer reported in this final report.   Although we have
included management’s written responses to our findings and recommendations, such
responses have not been subjected to the audit procedures and, accordingly, we do not provide
any form of assurance on the appropriateness of the responses or the effectiveness of the
corrective actions decribed therein. The SOS officials agreed with the recommendations and
provided corrective action.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for Federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

    •	 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

    •	 Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
       activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •	 “Maintain the expenditures of the State for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the State for
       the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254 )(b)(1)].




                                                 2
AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Arkansas Secretary of State:

    1.	 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
        HAVA and applicable requirements;

    2.	 Accurately and properly accounted for property purchased with HAVA payments and for
        program income;

    3.	 Met HAVA requirements for Section 251 funds for an election fund and for a matching
        contribution. We did not determine whether the SOS met the requirement for
        maintenance of a base level of state outlays, because the Commission is reviewing its
        guidance on the applicability of the maintenance of a base level of state outlays to
        subgrantees of the SOS.
In addition to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
        Agreements with State and Local Governments (also known as the “Common Rule”) as
        published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 Expend payments in accordance with cost principles for establishing the allowance or
        disallowance of certain items of cost for federal participation issued by the OMB.

    3.	 Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from April 16, 2003 through
June 30, 2009.

Funds received and disbursed from April 16, 2003 (program initiation date) to June 30, 2009
(75-month period) are shown below:




1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds. For
Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar year. For Section
251, reports are due by March 30 for the activities of the previous fiscal year ending on September 30.



                                                        3
                                               FUNDS RECEIVED
 TYPE OF            EAC          PROGRAM          STATE       INTEREST              TOTAL          FUNDS         DATA

 PAYMENT          PAYMENT         INCOME          MATCH        EARNED             AVAILABLE      DISBURSED       AS OF


 Section 101      $ 3,593,164    $         -      $           -   $     376,200   $ 3,969,364    $ 3,969,364    6/30/2009
 Section 102        2,569,738              -                  -          74,935      2,644,673      2,644,673   6/30/2009
 Section 251       23,586,449              -          1,500,000       2,133,929     27,220,378     21,591,875   6/30/2009

                  $ 29,749,351   $         -     $ 1,500,000      $   2,585,064   $ 33,834,415   $ 28,205,912   6/30/2009


     Note:	    The Sec. 102 interest earned of $74,935 is included in Sec. 102 funds disbursed, and has
               been deducted from the Sec. 251 funds disbursed in the above schedule, because the funds
               were transferred from Sec. 102 to Sec. 251 as all of the Sec. 102 monies were expended.

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the personnel certifications, the maintenance of comprehensive equipment
inventories, and the determination of whether the SOS and its subgrantees met the requirement
for maintenance of a base level of state outlays which were specifically omitted from our scope
of work as explained above, our audit concluded that SOS generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above. The SOS has
taken action on or is working to resolve the exceptions described below as set forth in Appendix
A:

I.     Personnel Certifications

The State of Arkansas’s Office of the Secretary of State (SOS) did not complete semi-annual
certifications for employees that worked full-time or solely on HAVA activities for the period
during which the SOS was paying personnel costs with HAVA program funds (July 16, 2003 –
June 30, 2007). No HAVA program funds were used to pay personnel costs during the period
from July 1, 2007 to the end of the audit period (June 30, 2009). All personnel costs during the
period after July 1, 2007 were paid for through the State of Arkansas’ general fund.

Recommendation:

We recommend that the SOS resolve with the EAC the appropriate corrective action regarding
the lack of periodic certifications for the period personnel costs were paid by HAVA program
funds.




                                                              4
SOS Response:

The SOS contacted the EAC both by phone and via email, and was advised that, unless the
EAC specifically requests the information, the SOS is not required to send the certifications at
this time. The EAC also suggested the SOS inform the Auditor that we have updated the
personnel certifications and we are now aware of this requirement. If federal funds are spent on
personnel salaries in the future and, if applicable, the SOS will prepare the required
certifications and submit to the appropriate agency.


 II.   Property Management

During our testing of the existence of HAVA purchased equipment to the inventory
documentation provided by the Secretary of State staff, we noted that there were discrepancies
at five of eight counties we visited. The serial numbers on four of the equipment items at two of
the counties did not match the serial numbers per the counties’ written inventory records. At
three of the counties, they did not have written records or physical possession of a total of five
equipment items that the SOS indicates were transferred to them.

It was also noted that during our review of the County’s equipment/property maintenance
records, the Counties are not complying with the requirements of 41 CFR 105-71.132 with
regards to the identification and management of equipment purchased with federal funds. The
Counties do not maintain property records that include the attributes outlined in 41 CFR 105­
71.132.

The counties must conform to federal rules, and the Uniform Administrative Requirements for
Grants and Cooperative Agreements with State and Local Governments, 41 CFR 105-71.132
Equipment states that property records must be maintained that include a description of the
property, serial number or other identification number, the source of property, who holds the
title, the acquisition date, costs of the property, percentage of Federal participation in the cost of
the property, the locations, use and condition of the property, and any ultimate disposition data
including the date of disposal and sale price of the property.

Recommendations:

We recommend that the SOS:

1)	    Ensures that the property listings of HAVA funded equipment owned by the state reflect
       accurate information as prescribed by the state fixed asset guidelines.

2)	    Instruct the counties to ensure that the property listings of HAVA funded equipment in their
       possession reflect accurate information as prescribed by 41 CFR 105-71.132.

3)	    Issue guidance to the jurisdictions that identifies 41 CFR 105-71.132(d) as the regulation
       that	 describes the property records to be prepared and maintained, and implement
       procedures to periodically monitor compliance with this regulation.

SOS Response:

The SOS will prepare and send correspondence to all Arkansas counties regarding the
requirements of the Arkansas County Accounting Law 14-25-106, “Fixed Assets and Equipment


                                                  5
Records” and the Code of Federal Regulations 41 CFR 105-71.132. In addition, the SOS will
send a template for the counties to use when establishing this inventory tracking
procedure/policy. The template will include the following: Description of Property, Serial
Number, Who Holds Title, Acquisition Date, Cost of the Property, Percentage of Federal
Participation, Location of Property, Use and Condition. The SOS will conduct a physical
inventory on all HAVA-funded equipment in the possession of the counties in order to correct
and properly record any discrepancies.

                             ****************************************

We provided a draft of our report to the appropriate individuals of the Arkansas Secretary of
State, and the United States Election Assistance Commission. We considered any comments
received prior to finalizing this report.

CG performed its work between August 18, 2009 and August 27, 2009.



a1
Calverton, Maryland
November 4, 2009




                                                6
                                                                                   Appendix A-1




December 21, 2009



Mr. Curtis Crider
Inspector General
U.S. Election Assistance Commission
1225 New York Ave. NW Suite 1100
Washington, D.C. 20005

Re: Letter dated December 1, 2009 with attached Draft Performance Audit Report-Administration
of Payments Received Under the Help America Vote Act by the State of Arkansas dated
November 10, 2009

Dear Inspector General Crider,

Thank you for the opportunity to review and comment on the draft Audit Report dated
November 10, 2009 that you sent on December 1, 2009.

Our comments regarding both findings remain the same.

Again, thank you for the opportunity to review and comment prior to the publication of this
report. If I can be of any further assistance regarding this audit, please do not hesitate to contact
me.

Sincerely,



Charlie Daniels
Arkansas Secretary of State
                                                                                              Appendix A-2
                                                                 state of Arkansas
                                                                       Secretary of State
                                                                  Business & Commercial Services    682·3409
                                                                  Elections                         6B2-5070
                                                                  Building & Orounds                6B2·3407
                                                                  Communications & Education        683·0057
                                                                  Stale Capllal Pollee              682-5173
Charlie Daniels                                                   Business Ornce                    682·8032
                                                                  Information Technology            662·3411
 Secretary of State
                                                    October 19, 2009

   U. S. Election Assistance Commission 

   Curtis Crider, Inspector General 

   1225 New York Ave. NW - Suite 1100 

   Washington, DC 2005                .


   Dear Mr. Crider:

           The Arkansas Secretary of State (SOS) respectfully submits the following responses to U.
   S. Election Assistance Commission (EAC) Audit findings and recommendations concerning 

   Arkansas's administration of He)p America Vote Act (HAVA) funds for period ending June 30, 

   2009. 

           NFR # 1: The Arkansas SOS office contacted the EAC both by phone and via email. 

   Our contact, _               advised the SOS that unless the EAC specifically requests the 

   information, the SOS is not required to send the certifications at this time. ~ also 

   suggested the SOS inform the Auditor that we have updated the personnel certifications and we 

   are now aware of the requirement. If federal funds are spent on personnel salaries in the future 

   and if applicable, the Arkansas Secretary of State wi11 prepare the required certifications and 

   submit to the appropriate agency. 

           NFR # 2: The two payments were approved according to policy, however notation was 

   not indicated or internal routing as required. Proper procedures previously implemented will be 

   enforced. 

           NFR # 3: The (SOS) will prepare and send correspondence to all Arkansas counties 

   regarding the requirements of the Arkansas Couoly Accounting Law section 14-25-106, "Fixed 

   Assets and Equipment Records" and the Code of Federal Regulations 41 CFR 105-71.132. In 

   addition, the SOS will send a template for the counties to use when establishing this inventory 

   tracking procedure/policy. The template will include the following: Description of Properly, 

   Serial Number, Who Holds the Title, Acquisition Date, Cost of the Properly, Percentage of 

   Federal Participation, Location ofProperly, Use and Condition. The SOS will conduct a physical 

   inventory of all HAVA-funded equipment in the possession ofthe counties in order to correct and 

   properly record any discrepancies. 





   cc: 	 Janet Harris, Deputy Secretary of State
         Carder Hawkins, HAVA Project Manager

                  Room 256 State Capitol' Little Rocl,. Arlmnsas 72201·1094
                               501-682-1010 • Fax 501-682-5510       ------------'
                   e-mail: arsos@sos.arliansas.gov • www.sos.arlmnsas.gov
Text redacted pursuant to                          7
Freedom of Information Act Exemption 6.
                                                                                       Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the SOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Form SF-269, accounting for property,
   purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.




                                                8

•	 Conducted site visits of selected counties to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Ensure compliance with HAVA Act.




                                                9

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
